             Audit Report



Payee Assistance Management, Inc.,
 an Organizational Representative
   Payee for the Social Security
          Administration




       A-06-12-11261 | March 2013
MEMORANDUM


Date:      March 27, 2013                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Payee Assistance Management, Inc., an Organizational Representative Payee for the Social
           Security Administration (A-06-12-11261)

           The attached final report presents the results of our audit. Our objective was to determine
           whether Payee Assistance Management, Inc., had effective safeguards over the receipt and
           disbursement of Social Security benefits and used and accounted for Social Security benefits in
           accordance with the Social Security Administration’s policies and procedures.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Payee Assistance Management, Inc., an Organizational
Representative Payee for the Social Security Administration
A-06-12-11261
March 2013                                                                 Office of Audit Report Summary

Objective                                   Our Findings

We initiated this audit at the request of   PAM did not have effective safeguards over the receipt and
the Social Security Administration’s        disbursement of Social Security benefits and did not always use and
(SSA) Denver Regional                       account for Social Security benefits in accordance with SSA
Commissioner. Our objective was to          policies and procedures.
determine whether Payee Assistance
Management, Inc. (PAM), had                 PAM transferred beneficiary funds into a non-SSA-authorized
effective safeguards over the receipt       collective account and acknowledged it commingled beneficiary
and disbursement of Social Security         funds with funds that belonged to an undisclosed number of non-
benefits and used and accounted for         beneficiaries. PAM did not adequately account for beneficiary
benefits in accordance with SSA’s           funds in the collective account, adequately monitor or report
policies and procedures.                    Supplemental Security Income recipient resources, or account for
                                            unspent beneficiary funds paid to a travel agency. PAM double
Background                                  charged a beneficiary for purchases, charged unallowable payee
                                            fees, and maintained insufficient bonding. We also identified
Congress granted SSA the authority to       internal control deficiencies related to documentation of
appoint representative payees for those     transactions and separation of duties.
beneficiaries judged incapable of
managing or directing the management        Our Recommendations
of their benefits. Representative
payees receive and manage payments          PAM resigned as an SSA representative payee effective
on behalf of these beneficiaries.           June 30, 2012, and SSA assigned another representative payee to
                                            manage these beneficiaries’ payments. However, a number of
PAM is a fee-for-service                    issues remained unresolved. As such, we made eight
organizational representative payee         recommendations for corrective action.
that served 17 Social Security
beneficiaries and Supplemental              SSA agreed with our recommendations.
Security Income recipients.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Inadequate Accounting or Receipt and Disbursement of Funds ................................................3
           Use of Non-SSA-Authorized Collective Bank Account ......................................................4
           Collective Account Balances Did Not Agree with Subsidiary Ledger Balances ................4
           Checks Payable to CASH ....................................................................................................4
           Personal Funds Not Adequately Tracked ............................................................................5
           Deposit Sources Not Identified ............................................................................................5
           $194,000 in Unmanaged and Unaccounted for Conserved Funds .......................................5
           Failure to Report that SSI Recipients Exceeded Resource Limits .......................................6
           Travel Deposits Not Tracked ...............................................................................................8
           Beneficiary Fund Balances Charged Twice for Same Purchase ..........................................8
           Unallowable Representative Payee Fees .............................................................................9
           Insufficient Bonding ..........................................................................................................10
           Unreported Beneficiary Address Changes .........................................................................11
           Bank Account Incorrectly Titled .......................................................................................11
     Internal Control Deficiencies ...................................................................................................11
           Lack of Separation of Duties .............................................................................................12
     PAM Resigned as SSA Representative Payee .........................................................................12
Conclusions ....................................................................................................................................12
Recommendations ..........................................................................................................................13
Agency Comments .........................................................................................................................13
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Example of Personal Funds Not Adequately Tracked ........................................ B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

OIG                  Office of the Inspector General

PAM                  Payee Assistance Management, Inc.

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

U.S.C.               United States Code

VA                   Department of Veterans Affairs




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)
OBJECTIVE
We initiated this audit at the request of the Social Security Administration’s (SSA) Denver
Regional Commissioner. Our objective was to determine whether Payee Assistance
Management, Inc., (PAM) had effective safeguards over the receipt and disbursement of Social
Security benefits and used and accounted for Social Security benefits in accordance with SSA
policies and procedures.

BACKGROUND
SSA provides benefits to the most vulnerable members of society—the young, elderly, and
disabled. Congress granted SSA the authority to appoint representative payees for those
beneficiaries judged incapable of managing or directing the management of their benefits. 1
Representative payees receive and manage payments on behalf of these beneficiaries. 2 Given the
vulnerability of the beneficiaries and the risk that a representative payee may misuse
beneficiaries’ funds, it is imperative that SSA have appropriate safeguards to ensure
representative payees meet their responsibilities.

As a fee-for-service organizational representative payee, PAM served 17 Social Security
beneficiaries and Supplemental Security Income (SSI) recipients. 3 Non-governmental, fee-for-
service payees must be bonded to be authorized by SSA to collect a fee. 4 This constitutes a bond
or insurance contract that protects the representative payee and SSA from financial loss caused
by an organization’s or its employees’ actions.

In March 2011, the Denver Region hired an accounting firm to review PAM’s financial records
and practices. The accounting firm identified several deficiencies. In November 2011, the
Denver Regional Commissioner requested that we determine whether PAM complied with
Social Security policies and procedures. See Appendix A for additional information on our
scope and methodology.




1
    Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
2
    20 C.F.R. §§ 404.2001 and 416.601.
3
  As of January 1, 2011, PAM was serving 17 beneficiaries. We use the term “beneficiary” throughout the report in
reference to both Social Security beneficiaries and SSI recipients.
4
 Social Security Act, §§ 205(j)(10) and 1631(a)(2)(I), 42 U.S.C. 405(j)(10) and 1383(a)(2)(I); 20 C.F.R. §§
404.2040a and 416.640a; SSA, POMS GN 00506.105.A (October 24, 2011).




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)               1
RESULTS OF REVIEW
PAM did not have effective safeguards over the receipt and disbursement of Social Security
benefits and did not always use and account for Social Security benefits in accordance with SSA
policies and procedures.

PAM did not provide all accounting records requested for our audit. During our review, PAM
officially notified SSA that, effective June 30, 2012, it would no longer serve as a representative
payee.

Based on our review of available PAM accounting records, we determined PAM:

•     Transferred funds from beneficiaries’ individual bank accounts into a non-SSA-approved
      collective bank account. PAM acknowledged it commingled beneficiary and non-beneficiary
      funds in this collective account. We identified the following additional discrepancies.

       The collective account balance that appeared on the December 31, 2011 check register
        did not agree with the sum of individual account balances recorded on collective account
        subsidiary ledgers.

       In Calendar Year 2011, PAM’s collective account check register listed 41 checks,
        totaling over $103,000, payable to “Cash.”

       PAM wrote $4,450 in checks from beneficiaries’ bank accounts and appeared to have
        deposited the funds into the collective account. 5 PAM decreased beneficiaries’ individual
        account balances but made no corresponding accounting entries to increase the balances
        of the beneficiaries’ collective account subsidiary ledgers.

       PAM did not record deposit sources to identify client funds on the collective account
        check register.

•     Did not manage or account for more than $194,000 in conserved funds belonging to one
      beneficiary.

•     Did not adequately monitor or effectively manage SSI recipients’ resources. By failing to
      report that it held conserved fund balances in excess of the $2,000 resource limit for two SSI
      recipients, SSA issued $11,760 in SSI payments to PAM that recipients were not entitled to
      receive.




5
    Based on our review of cancelled checks and discussion with PAM’s Executive Director.




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)     2
•     Did not account for at least $2,379 in beneficiary funds held at a travel agency but not spent
      for beneficiary travel. PAM also let a beneficiary’s $700 check payable to a travel agency
      remain outstanding for at least 9 months. 6

•     Double charged a beneficiary for two purchases totaling $593.

•     Charged SSA beneficiaries unallowable representative payee fees.

•     Did not maintain sufficient bonding to protect SSA from potential losses caused by the
      actions of PAM and its employees.

•     Did not always notify SSA of changes in beneficiary addresses.

•     Did not always title bank accounts in accordance with SSA policy.

These issues occurred because PAM’s system of internal controls did not adequately ensure
PAM documented transactions and used SSA funds only for the beneficiaries’ use and benefit.
We referred these matters to our Office of Investigations for potential criminal investigation.

Inadequate Accounting or Receipt and Disbursement of Funds
PAM did not comply with SSA policy requiring that representative payees maintain accurate and
complete records for the Social Security benefits it manages. 7 PAM opened an individual
checking or savings account for each SSA beneficiary it served and had SSA benefits
electronically deposited into these accounts. 8 However, PAM then transferred beneficiary funds
from the individual bank accounts into a non-SSA-authorized collective bank account,
commingling beneficiary funds with non-SSA beneficiaries’ funds. Based on the records
provided, PAM did not accurately account for deposits to, and expenditures from, the collective
account.




6
  PAM issued a $700 check from a beneficiary’s individual account to the travel agency in August 2011 and reduced
the beneficiary’s account balance by $700. However, the travel agency confirmed it did not receive this payment
and we confirmed the check was not cashed. At the time of our review, PAM had not credited these funds to the
beneficiary’s account.
7
    SSA, POMS, GN 00502.113.C.1 and D.3.b (October 13, 2011).
8
 Four SSA beneficiaries also received Department of Veterans Affairs (VA) benefit payments. PAM commingled
VA and SSA payments in the individual accounts.




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)               3
Use of Non-SSA-Authorized Collective Bank Account
PAM maintained separate checking or savings accounts for each beneficiary. SSA electronically
deposited payments into these individual bank accounts. Available accounting records indicated
that PAM accurately recorded SSA deposits for each beneficiary. Available records also
indicated that PAM wrote checks on these accounts to pay beneficiary living expenses.

Available accounting records further indicated that PAM subsequently transferred funds from
beneficiaries’ individual accounts into a non-SSA-authorized collective bank account. 9 PAM
acknowledged it commingled beneficiary funds in the collective account with funds from an
undetermined number of non-beneficiaries. 10

Collective Account Balances Did Not Agree with Subsidiary Ledger Balances
PAM provided documentation identifying collective account subsidiary ledger ending balances
and the collective account check register balances as of December 31, 2011. Our comparison of
this documentation indicated that subsidiary ledger balances totaled $10,347.06 less than the
balance recorded on PAM’s collective account check register.

Representative payees are required to make accounts and supporting records available to SSA
upon request. 11 We requested that PAM provide all collective account subsidiary ledgers so we
could examine collective account deposit and withdrawal activity. PAM’s Executive Director
stated that, because the collective account included non-SSA beneficiary funds, he would not
provide complete subsidiary ledgers. As a result, we could not determine why subsidiary ledger
balances did not agree with the collective bank account check register.

Checks Payable to CASH
The collective account check register indicated that PAM wrote 41 checks, totaling $103,000,
from the collective account payable to CASH. Once issued, anyone could negotiate these
checks, making it virtually impossible to determine how PAM actually used these funds.




9
 SSA, POMS, GN 00603.020.B (June 5, 2008); requires that representative payees obtain SSA approval before
depositing beneficiary funds into a collective bank account. District Office officials stated that SSA was not aware
of the existence of the collective account and did not approve PAM’s use of a collective bank account.
10
     PAM did not disclose the collective account until our site visit to payee facilities in May 2012.
11
     SSA, POMS, GN 00603.020.B.1.f (June 5, 2008).




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)                      4
Personal Funds Not Adequately Tracked
PAM did not always maintain receipts and supporting documentation to account for
beneficiaries’ disbursed funds. SSA requires that representative payees maintain accurate and
complete records of the Social Security benefits it manages. 12 We identified seven checks,
totaling $4,450, that PAM wrote from beneficiary checking accounts that did not have adequate
receipts or supporting documentation. PAM accounting records indicated these expenditures
were funds requests.

Based on our review of cancelled checks and discussion with PAM personnel, it appeared PAM
wrote checks payable to the beneficiaries, deducted the check amounts from the beneficiaries’
individual checking accounts, and deposited the proceeds into the collective account (see
Appendix B. 13

However, PAM did not always make corresponding accounting entries to increase balances
recorded on the beneficiaries’ collective account subsidiary ledgers.

Deposit Sources Not Identified
PAM did not identify the source of deposits on its collective bank account check register. SSA
requires that representative payees maintain accurate and complete records. 14 When we reviewed
the collective account check register, we found the transaction descriptions for the respective
deposits were blank or simply read “DEP.” As a result, we could not identify the source of funds
deposited or determine which client subsidiary ledgers should have been credited.

$194,000 in Unmanaged and Unaccounted for Conserved Funds
PAM did not manage or account for approximately $194,000 in conserved funds 15 that belonged
to an SSA beneficiary in its care. In 2011, an accounting firm SSA hired to review PAM’s
accounting records reported that PAM did not account for this beneficiary’s large conserved fund
balance in its accounting records. Accounting firm personnel stated that during their review,
PAM’s Executive Director said the organization held the funds in a certificate of deposit. We
interviewed the beneficiary, and he expressed concern about the status of his funds. The
beneficiary stated that PAM’s Executive Director told him a judge had his funds.



12
     20 C.F.R. §§ 404.2035 and 416.635; SSA, POMS, GN 00502.113.C.1 and D.3.b (October 13, 2011).
13
  We identified another $3,500 in payments from beneficiaries’ individual accounts that appeared to have been
similarly deposited into the collective account. However, PAM did not provide complete copies of the
beneficiaries’ collective account subsidiary ledgers. As a result, we could not determine whether PAM recorded the
deposits on the beneficiaries’ collective account subsidiary ledgers.
14
     20 C.F.R. §§ 404.2035 and 416.635; SSA, POMS, GN 00502.113.C.1 and D.3.b (October 13, 2011).
15
     Part of a $232,359 retroactive military service-related disability payment the VA awarded in May 2003.



Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)                5
We asked PAM’s Executive Director to explain what happened to the beneficiary’s funds. The
Executive Director initially told us the beneficiary’s money had been deposited into a mutual
fund, but he provided no documentation to support the assertion. The Executive Director
subsequently told us that PAM was never given access to, or control over, the beneficiary’s
conserved funds. He said the beneficiary’s previous representative payee did not turn over the
funds.

We contacted the previous representative payee, 16 which provided documentation that it invested
the beneficiary’s conserved funds in an annuity. The payee also provided documents indicating
that a South Dakota court terminated its legal conservatorship over the beneficiary in November
2009, and PAM was the beneficiary’s current conservator.

Insurance company customer service personnel confirmed the beneficiary’s annuity value was
over $194,000 as of November 1, 2012. Customer service personnel also stated the annuity was
titled solely in the beneficiary’s name, the insurance company did not have the beneficiary’s
address or telephone number, and no funds had been withdrawn from the account since 2008.

As a result of the confusion surrounding access to, and control over these funds, a large
conserved fund balance that could have been used to help meet the beneficiary’s needs had been
unused for more than 4 years. Further, the circumstances resulted in a situation where a legally
incompetent beneficiary was mistakenly granted unrestricted access to a large conserved fund
balance. When SSA becomes aware of a situation where a VA fiduciary is not performing
his/her duties in a veteran’s best interests, SSA should furnish this information to the VA
regional office for investigation. 17 We referred this matter to the VA OIG on November 16,
2012.

Failure to Report that SSI Recipients Exceeded Resource Limits
PAM failed to inform SSA that it held two SSI recipients’ conserved funds in excess of
allowable resource limits. Representative payees are required to notify SSA of events or changes
that affect a beneficiary’s entitlement to benefits, including when an SSI recipient’s resources
exceed the $2,000 allowable limit.18 SSI overpayments occur when (1) a recipient’s resources
exceed the allowable resource limit because of changes in the recipient’s circumstances that



16
  In March 2003, the VA determined the beneficiary was legally incompetent and appointed a South Dakota
representative payee to serve as his payee and conservator and to receive his retroactive disability payment. In
December 2003, the VA, in concert with the District Court in Sheridan, Wyoming, transferred the beneficiary’s
conservatorship to PAM with respect to “undeposited and future VA benefits.”
17
     SSA, POMS, GN 00602.100 (March 2, 2011).
18
  20 C.F.R. §§ 416.708 and 416.1205(c); SSA, POMS, SI 01110.003.A.2 (December 8, 2010) and
GN 00502.113.C.1 (October 13, 2011); SSA, A Guide for Representative Payees (No. 05-10076), pages 16 and 17,
(January 2009).




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)                  6
affect eligibility of benefits 19 or (2) the representative payee is improperly conserving benefits by
not spending the funds on the recipient’s current and foreseeable needs. 20

Available records indicated that on multiple occasions in Calendar Year 2011, PAM transferred
funds between the recipient’s individual bank account and the collective account at the end of the
month so recipient’s individual bank account balances fell below the $2,000 resource limit.
While this practice caused the beneficiary’s individual account balances to drop below the
$2,000 SSI resource limit, the beneficiary’s total countable resources were not actually reduced.

To illustrate, available records indicated that near the end of December 2011, an SSI recipient’s
individual bank account contained $3,243. This amount of resources should have made the
recipient ineligible for continued SSI payments. PAM accounting records indicated that, on
December 27, 2011, PAM transferred $2,000 from the recipient’s individual account into the
collective account, leaving $1,243 in the recipient’s individual account. Available documents
indicate that PAM cited “spend down” as the reason for the funds request (see example below).

             Figure 1: Funds Request to “Spend Down” Recipient’s Account Balance.




However, we confirmed these funds were not actually spent on beneficiary needs, they were
simply moved into the collective account. We confirmed that PAM made similar transfers
throughout the year for both recipients.

PAM did not report to SSA that it held conserved funds in excess of the $2,000 resource limit
and continued receiving SSI payments on behalf of both recipients. PAM’s Executive Director
stated he intended for these funds to be issued directly to the recipients. However, for
undisclosed reasons, the funds remained in the collective account. The Executive Director
acknowledged the transfer amounts should have been applied against the recipient’s resource
limit. As a result of PAM’s reporting failures, in Calendar Year 2011, SSA issued PAM about
$11,760 in SSI payments that these recipients were not entitled to receive.



19
     SSA, POMS, SI 01110.003.A.2 (December 8, 2010) and GN 00502.113.C.1 (October 13, 2011).
20
     SSA, POMS, GN 00602.130.A (March 5, 2002) and GN 00603.001.B.2 (November 15, 2004).




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)    7
Travel Deposits Not Tracked
PAM did not account for $3,079 in beneficiary funds paid to a travel agency that were not used
for beneficiary travel. PAM reduced beneficiary account balances when it paid the travel
agency; however, PAM did not record outstanding/unused travel deposits in beneficiary
accounting records or otherwise credit beneficiary account balances for the unused funds.

In August 2011, PAM issued a $700 check from a beneficiary’s individual account payable to a
travel agency. PAM’s Executive Director told us the payment was a travel deposit but provided
no receipts or supporting documentation (for example, travel itinerary or travel agency invoice)
for the payment. We requested that PAM’s Executive Director identify any additional
beneficiary funds on deposit at the travel agency. He stated there were no other funds at the
travel agency and that PAM no longer used that particular travel agency’s services.

We contacted travel agency personnel, who stated they had not received the $700 check, and
obtained confirmation from PAM’s bank that, as of May 2012, the check had not been cashed.
Travel agency personnel further confirmed that they held an additional $2,379 in beneficiary
funds that PAM sent as advance travel deposits for possible future vacation travel. Travel
agency personnel stated the balances were refundable upon request. We provided SSA with
travel agency contact information and travel deposit balances so it could attempt to recover the
beneficiaries’ funds.

PAM’s collective account check register also listed a $4,000 check paid to a second travel
agency in December 2011. The check register did not indicate which beneficiary’s funds were
used for this payment. We could not identify travel agency contact information using Internet
searches. As a result, we could not determine whether the travel agency received these funds,
the funds were spent for beneficiary travel, or unspent funds remained on deposit at the travel
agency.

Beneficiary Fund Balances Charged Twice for Same Purchase
On two occasions, available records indicated that PAM charged a beneficiary twice for the same
purchase. After making the $593 purchases, PAM deducted amounts from balances recorded on
both the beneficiary’s individual checking and collective accounts.

•   In March 2011, PAM wrote a $483 check payable to a furniture company using the
    beneficiary’s individual checking account. PAM posted the check to the beneficiary’s
    individual check register and referenced the invoice number on the check. PAM provided a
    $483 invoice, dated March 16, 2011, from the furniture company to support the furniture
    purchase. However, we observed that on the same day, PAM deducted an identical amount
    from the beneficiary’s collective account balance. PAM’s Executive Director stated these
    were two separate purchases of identical furniture. According to the Executive Director,
    PAM purchased the beneficiary a chair, which the beneficiary subsequently ruined. As a
    result, PAM purchased a second, replacement chair for the beneficiary. The Executive
    Director did not provide any vendor documentation to indicate these were separate
    purchases. Also, the Executive Director offered no explanation when we pointed out that


Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)   8
      PAM’s accounting records indicated both purchases occurred on the same day—
      contradicting his explanation.

•     In January 2012, PAM wrote a $110 check on the beneficiary’s individual checking account
      for the purchase a Techno Beat Sound Ball. 21 PAM provided an invoice that listed an order
      date of November 9, 2011. However, we observed that on November 9, 2011, PAM also
      deducted the same amount from the beneficiary’s collective account balance for the purchase
      of a “lighted play ball.” PAM’s Executive Director acknowledged the duplicate charge and
      stated it was an accounting error.

Representative payees should have appropriate documentation to support expenditure of Social
Security benefits for beneficiaries’ needs. 22

Unallowable Representative Payee Fees
SSA approved PAM to collect a fee for its payee services. However, we identified three
instances where PAM charged beneficiaries unallowable representative payee fees. SSA policy
prohibits collecting a payee fee from a beneficiary if an organization receives compensation for
performing any representative payee services for the individual from another source that equals
or exceeds the payee’s allowable fee. 23

•     Two SSA beneficiaries in PAM’s care also received VA benefit payments. PAM charged
      both beneficiaries a monthly VA benefit management fee ranging from $133 to $141, in
      addition to the $37 monthly fee it charged the beneficiaries to manage their SSA benefits.
      Because PAM charged a higher fee to manage the VA benefits, it was not authorized to
      charge the second fee to manage the SSA funds. SSA’s Office of SSI and Representative
      Payee Policy staff confirmed that PAM was not eligible to collect any of the $851 in fees it
      charged these beneficiaries in Calendar Year 2011.

•     PAM improperly charged one beneficiary at least $111 in payee fees. Because SSA had
      never established PAM as this beneficiary’s payee, PAM was not authorized to assess payee
      fees. 24 Available accounting records indicated that PAM received the beneficiary’s
      April 2011 benefit payment and, in April and May 2011, deducted $111 in payee fees from
      his account balance. However, effective May 2011, SSA had assigned a different payee to


21
  Per the vendor’s Website, a Techno Beat Ball features two colors with two distinct sounds. The rechargeable ball
can be used to improve motor skills, play games, and practice sound localization skills.
22
  20 C.F.R.§§ 404.2065 and 416.665. SSA regulations indicate that representative payees must account for the use
of benefits, should keep records of how benefits were used to complete accounting reports, and must make those
records available upon SSA’s request.
23
     SSA, POMS, GN 00506.220.A (August 18, 2004).
24
     SSA, POMS, GN 00506.210.A (March 27, 2003).




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)                  9
      receive and manage the beneficiary’s payments. Available records and discussion with the
      successor payee indicated that PAM did not forward the successor payee any of the
      beneficiary’s conserved funds. 25

PAM’s Executive Director stated he was not aware that SSA policy prohibited the charging of
multiple user fees and acknowledged that he had been assessing applicable beneficiaries both
VA and SSA user fees “for years.” SSA requires that a representative payee use benefits to meet
a beneficiary’s current and foreseeable needs. Any other use of benefits, such as unauthorized
fees charged by the representative payee, could constitute misuse of benefits.

Insufficient Bonding
PAM did not maintain sufficient bond coverage to protect SSA from financial loss caused by its
officers or staff. SSA policy requires that non-governmental fee-for-service representative
payees be bonded to collect a fee. 26 The bond must be sufficient to compensate the organization
or SSA for any loss of SSA client benefits and conserved funds. If the representative payee
defaults on its obligation, SSA can make a claim directly against the surety bond.

PAM’s bond listed coverage for $52,000. However, the minimum coverage must equal the
amount of beneficiaries’ conserved funds on-hand plus the average monthly amount of Social
Security payments received by the organization. 27 As of January 2011, the average amount of
Social Security payments PAM received each month totaled $11,130, and PAM maintained at
least $63,005 in additional conserved fund balances for the beneficiaries, indicating PAM’s bond
coverage was at least $22,135 less than required.

We also determined that PAM improperly named its Executive Director as the sole insured
principal—not PAM. As a result, the bond did not appear to cover potential losses caused by the
acts of PAM’s two other staff. Staff in SSA’s Office of SSI and Representative Payee Policy
stated the organizational payee, not its Executive Director, should have been listed as the insured
principal.




25
  PAM provided this beneficiary’s accounting records only through May 2011. These records indicated that PAM
charged the beneficiary a $37 SSA payee fee in April 2011 and two $37 SSA payee fees in May 2011. Also, as of
May 31, 2011, the beneficiary’s conserved fund balance was $9,799. PAM also provided a summary of client
ledger balances as of December 31, 2011. The summary indicated that PAM continued to hold over $6,475 in
conserved funds for this beneficiary—$3,324 less than it held on May 31, 2011. PAM did not provide
documentation to support any expenditure of this beneficiary’s funds after May 31, 2011. As a result, we could not
determine whether PAM continued charging the beneficiary a payee fee after May 2011.
26
  Social Security Act, §§ 205(j)(10) and 1631(a)(2)(I); 42 U.S.C. 405(j)(10) and 1383(a)(2)(I); 20 C.F.R. §§
404.2040a and 416.640a; and SSA, POMS, GN 00506.105.A (October 24, 2011).
27
     SSA, POMS, GN 00506.105.C.5 (October 24, 2011).




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)               10
As a result of these bonding deficiencies, SSA was not adequately protected from potential
losses caused by actions of PAM or its employees.

Unreported Beneficiary Address Changes
PAM did not always notify SSA when beneficiaries moved. SSA requires that representative
payees notify SSA of events or changes that will affect a beneficiary’s entitlement to benefits,
amount of benefits, or their ability to fulfill the responsibilities of being a payee. 28 However,
PAM did not provide SSA with current address information for seven beneficiaries—as required
by SSA policy. 29

Bank Account Incorrectly Titled
PAM did not always properly title beneficiary bank accounts. SSA policy states that, if a
representative payee requests direct deposit, the title of the bank account must show that the
representative payee has only a fiduciary interest in the account. 30 However, we noted PAM
titled one account used to receive a beneficiary’s direct deposited funds under the name of its
Executive Director instead of under PAM.

SSA appointed PAM as representative payee for the beneficiary—not the Executive Director.
We asked the Executive Director why the beneficiary’s bank account was titled under his name.
He responded that he forgot to update the title. 31 As a result, the beneficiary’s bank account did
not show that PAM had a fiduciary interest in the account.

Internal Control Deficiencies
Organizational representative payees are responsible for all beneficiary funds received. As a
result, SSA expects organizational representative payees to establish internal procedures and
guidelines to ensure the security of beneficiary funds. During our review, we identified internal
control deficiencies related to documentation of transactions and separation of duties.




28
     20 C.F.R. §§ 404.2035(d) and 416.635(d); 20 C.F.R. §§ 404.2035(f) and 416.635(f).
29
     SSA, POMS, GN 00502.113.C.1 (October 13, 2011).
30
     SSA, POMS, GN 02402.055.A.1 (October 7, 2011).
31
  The Executive Director stated he previously served as the beneficiary’s individual representative payee and that
SSA subsequently assigned the beneficiary to PAM.




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)                    11
Lack of Separation of Duties
PAM did not have adequate separation of duties as they related to the disbursement of Social
Security funds. Specifically, the same staff could approve expenditures, sign checks, and record
and document transactions. One individual should not control all aspects of financial
transactions. Internal procedures should provide for adequate review and supervision of
accounting functions. Sufficient segregation of duties ensures key duties and responsibilities are
divided among different staff to reduce the risk of error, misuse, or fraud.

We understand it is sometimes difficult to have the optimum separation of duties with limited
staff. While PAM may not have established the ideal internal control system, it could have
enacted compensating controls to reduce the risk of misuse of beneficiaries’ funds. For example,
key financial transaction duties could have been divided among two or more staff. In addition,
such controls may have helped prevent and/or detect errors in recording beneficiary receipts and
expenditures.

PAM Resigned as SSA Representative Payee
Following our initial site visit, PAM resigned as an SSA representative payee, effective
June 30, 2012. As a result, we discontinued audit work at PAM’s offices. When PAM resigned,
it had not provided all requested accounting records and supporting documentation for
transactions that occurred during the period covered by our review. Further, PAM had not
provided complete accounting records and documentation related to collective account
transactions occurring during the timeframe covered by our review.

CONCLUSIONS
PAM did not have effective safeguards over the receipt and disbursement of Social Security
benefits and did not always use or account for Social Security benefits in accordance with SSA’s
policies and procedures.

PAM transferred beneficiary funds into a non-SSA authorized collective account and
commingled beneficiary funds with funds that belonged to an undisclosed number of non-
beneficiaries. PAM did not adequately account for beneficiary funds in the collective account,
adequately monitor or report SSI recipient resources, or account for unspent beneficiary funds
paid to a travel agency. It also double charged a beneficiary for purchases, charged unallowable
payee fees, and was insufficiently bonded. We also identified internal control deficiencies
related to documentation of transactions and separation of duties.




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)   12
RECOMMENDATIONS
PAM resigned as an SSA representative payee effective June 30, 2012, and SSA assigned
another representative payee to manage these beneficiaries’ payments. However, a number of
issues remain unresolved. As such, we recommend SSA:

1. Pursue recovery of $4,450 on behalf of beneficiaries whose funds were “lost” in the
   collective account, as appropriate.

2. Pursue recovery of SSI overpayments that resulted from PAM’s failure to report conserved
   fund balances in excess of SSI eligibility limits.

3. Pursue recovery of $2,379 in unspent beneficiary funds held by a travel agency and $700 in
   unspent travel funds held by PAM and forward recovered funds to the successor payee.

4. Determine whether SSA beneficiaries have unspent funds at the second travel agency.

5. Pursue recovery of $593 in duplicate charges from PAM and forward recovered funds to the
   successor payee.

6. Pursue recovery of $962 in unallowable management fees PAM charged beneficiaries in its
   care and forward recovered funds to the successor payee.

7. Verify that the successor payee is sufficiently bonded.

8. Work with a successor payee to establish internal procedures and guidelines that ensure the
   security of beneficiary funds.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix C for the full text of SSA’s comments.




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)   13
                                       APPENDICES




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)
Appendix A – SCOPE AND METHODOLOGY
Our audit period included transactions for the period January 1 through December 31, 2011. To
accomplish our objectives, we:

•   Reviewed applicable Federal laws and regulations and Social Security Administration (SSA)
    policies and procedures pertaining to representative payees.

•   Reviewed prior work performed in the representative payee area by the Office of the
    Inspector General and an accounting firm hired by SSA.

•   Interviewed both SSA Denver Region and Payee Assistance Management, Inc., (PAM)
    personnel.

•   Reviewed PAM’s, internal controls over the receipt and disbursement of Social Security
    benefits.

•   Requested PAM provide accounting records to support receipt and use of SSA beneficiary
    funds during the period reviewed. We also contacted PAM’s bank and obtained selected
    cancelled checks and supporting documentation. PAM did not provide all requested
    accounting records and resigned as an SSA representative, effective June 30, 2012.

•   Compared and reconciled benefit amounts SSA paid the beneficiaries with deposits recorded
    on PAM beneficiary accounting records.

•   Reviewed accounting records provided to determine whether benefits were properly spent or
    conserved on the individual’s behalf.

•   Selected 50 high-dollar expenditures for detailed review. We compared selected transactions
    to available source documents and examined the underlying documentation for
    reasonableness and authenticity.

•   Interviewed 10 of the 17 beneficiaries who lived in and around Sheridan, Wyoming, to
    determine whether their basic needs were being met.

We performed our audit in Dallas, Texas, and in Sheridan, Wyoming, between February and
November 2012. We conducted this performance audit in accordance with generally acceptable
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)   A-1
Appendix B – EXAMPLE OF PERSONAL FUNDS NOT
             ADEQUATELY TRACKED
Based on our review of cancelled checks and discussion with PAM personnel, it appeared PAM
wrote checks payable to the beneficiaries, deducted the check amounts from the beneficiary’s
individual accounts, and deposited the proceeds in the collective account.



 Figure B–1: Copy of $1,000 Check Written on Individual Beneficiary Account Payable to
              the Beneficiary but Deposited into PAM Collective Account




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)   B-1
    Figure B–2: Accounting Entry Reducing Beneficiary’s Individual Account Balance




  Figure B–3: Collective Account Bank Statement Showing Deposit of Beneficiary Funds




    Figure B–4: No October 2011 Deposits Recorded on Beneficiary Collective Account
                                 Subsidiary Ledger




However, as indicated above, PAM did not make a corresponding accounting entry to credit the
beneficiary’s collective account subsidiary ledger for the amount withdrawn from his individual
account and deposited into the collective account.




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)   B-2
Appendix C – AGENCY COMMENTS
Date: February 15, 2013

Subject: Signed Draft Report on PAM, Inc. (A-06-12-11261)--Denver's Reply

Patrick,

Thank you for the opportunity to review and provide comments on the attached draft report. We
agree with the findings and dollar amounts of all of your recommendations. Actions taken to
date include:

•   Per OIG’s verbal request during the January 3, 2013 closeout conference, we have not taken
    any action on Recommendations 1, 2, 5, and 6, pending the results of your criminal
    investigation.

•   For Recommendation 3, we initiated recovery actions on January 18, 2013, and are currently
    tracking.

•   For Recommendation 4, we contacted Latitudes Travel and found that there were no unspent
    funds.

•   For Recommendation 7, we have verified that the successor payee is sufficiently bonded.

•   For Recommendation 8, we have verified the successor payee’s internal procedures and
    guidelines are sufficient to ensure the security of the beneficiary funds.

If your staff has any questions, they may contact Jacqueline Casias, Deputy Center Director, at
303-844-2348.

Sean Brune




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)   C-1
Appendix D – MAJOR CONTRIBUTORS
Ron Gunia, Director, Dallas Audit Division

Neha Smith, Audit Manager, Denver Audit Office

David McGhee, Senior Auditor




Payee Assistance Management, Inc., an Organizational Representative Payee for SSA (A-06-12-11261)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
